US Justice: Print Friendly Version                                                                                                                              11/21/11 1:02 PM



      Home » Briefing Room » Justice News




                                                                           Department of Justice

                                                                              Office of Public Affairs

             FOR IMMEDIATE RELEASE                                                                                                        Friday, November 18, 2011

                    Former Executive Director of the American Samoa Special Services Commission Pleads Guilty to Conspiracy
                                            to Steal More Than $325,000 in Americorps Grant Funds
   WASHINGTON - The former executive director of the American Samoa Special Services Commission (the commission) pleaded guilty today to conspiracy to steal more
   than $325,000 in AmeriCorps grant funds, announced Assistant Attorney General Lanny A. Breuer of the Justice Department’s Criminal Division.

   Mine S. Pase, 62, of Pago Pago, American Samoa, pleaded guilty to a one-count criminal information in U.S. District Court for the District of Columbia before U.S. District
   Judge Reggie B. Walton.

   According to court documents, between approximately March 2001 and October 2010, Pase served as the commission’s executive director. As an agency of the American
   Samoa government, the commission administered community-based programs and services for the benefit of the people of American Samoa, including tutoring, literacy
   training, conservation efforts and counseling. To fund its mission, the commission relied exclusively on AmeriCorps grants from the Corporation for National and
   Community Service. From approximately January 2002 through October 2010, the commission and its programs received a total of $9,416,698 in AmeriCorps grant
   funds.

   Pase admitted that she arranged for herself, commissioners, commission staff and others to receive federal grant funds for their personal benefit. According to court
   documents, Pase and her staff received $109,532 in federal grant funds for official business trips that they did not take. In addition, among other things, Pase,
   commissioners and commission staff received approximately $78,889 in federal grant funds to pay for retreats to Apia, Western Samoa, and separately spent $89,313 on
   meals for the commission’s staff, when Pase knew that such expenditures were not authorized under the grants and that the commission had no legal authority to use the
   funds in that manner.

   According to court documents, Pase arranged for her and her family members to receive $28,009 as payment for office space used by commission programs that was
   severely damaged and in need of repairs. In addition, Pase’s daughter also received $19,665 as payments under a bogus “lease agreement,” when in fact Pase owned and
   controlled the vehicle that was purportedly being leased by the commission.
   Pase admitted that she knew at the time that she and others had no legal entitlement to receive these federal grant funds and she had no intention of repaying the money
   to the commission or the federal government, or requiring others to repay the money.

   The charge of conspiracy to commit theft of federal grant funds carries a maximum prison sentence of five years and a $250,000 fine. Sentencing has been scheduled for
   March 23, 2012, before Judge Walton.

   The case is being prosecuted by Trial Attorney Edward J. Loya Jr. of the Criminal Division’s Public Integrity Section. The case is being investigated by special agents of
   the Office of Inspector General for the Corporation for National and Community Service, with assistance from special agents of the FBI-Honolulu Division, American
   Samoa Resident Agency.
   11-1509                                                                                                                                                    Criminal Division




http://www.justice.gov/printf/PrintOut2.jsp                                                                                                                             Page 1 of 1
